Supreme Court of the United States
MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents,
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents,
ON WRITS OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

I, Debo P. Adegbile, a member of the bar of this Court, hereby certify that, on
this 19th day of January, 2021, all parties required to be served have been served copies
of the Brief for The Leadership Conference on Civil and Human Rights, The
Leadership Conference Education Fund, and 52 Other Public-Interest Organizations, as
Amici Curiae in support of Respondents in this matter by email and overnight courier
to the addresses on the attached service list.

DEBO P. ADEGBILE
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, N.Y. 10007
(212) 295-6717
debo.adegbile@wilmerhale.com

MICHAEL A. CARVIN
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com

JESSICA R. AMUNSON
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6023
JAmunson@jenner.com

JOSEPH A. KANEFIELD
OFFICE OF THE ARIZONA ATTORNEY GENERAL
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-8017
joe.kanefield@azag.gov
allyson.flanagan@azag.gov
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2217
SupremeCtbriefs@usdoj.gov

2

Marc E. Elias
Perkins Cole, LLP
700 13th Street, NW
Suite 800
Washington, DC 20005
(202) 434-1609
melias@perkinscoie.com

